Inspection Report No. OIG-INS-12-00-08:  Review of Certification of Toll Calls
Inspection Report No. OIG-INS-12-00-08  Review of Certification of Toll Calls
UNITED STATES GOVERNMENT
National Labor Relations Board
Office of Inspector General
Memorandum
August 21, 2000
To: Angela Crawford
Chief, Procurement and Facilities Branch
From: Jane E. Altenhofen
Inspector General
Subject:  Inspection Report No. OIG-INS-12-00-08:  Review of Certification of Toll Calls
We initiated this inspection in August 2000 to evaluate whether telephone toll calls charged to the National Labor Relations Board (NLRB) were certified as being for official business. We found that the Procurement and Facilities Branch, Facilities and Safety Section (Facilities), could not demonstrate that the telephone toll calls charged to the NLRB were certified in accordance with NLRB policy and procedures as being for official business.  We also found a lack of any meaningful management of the telephone toll call certification process.
SCOPE
We interviewed NLRB staff in Facilities and requested information from seven Regional Offices.  We reviewed Administrative Bulletin 94-43, Certification of Toll Calls, April 21, 1994; Federal statutes, public laws, and regulations pertaining to the use of Government telecommunication equipment; and the system of records that were created in accordance with the provisions of the Privacy Act of 1974. We requested that Facilities provide the completed telephone certification forms received for fiscal year 2000.  We determined whether completed certification forms had been received for the months from October 1999 through March 2000, and reviewed the October certifications for compliance with review procedures.
BACKGROUND
NLRB Administrative Bulletin 94-43 sets forth policies and procedures for the review and certification of all telephone calls that result in a charge to the NLRB. This bulletin requires that a certifying official for each office review the toll calls listed and determine that they are for the office, that none are duplicates and that they were for official business.  The certification process does not require a 100 percent review of the report. Rather, the certifying official should scan the billing statement and review every 10th call to determine if the call is official.  Any calls that were over 20 minutes, placed outside of normal working hours, made to an area code where the office normally does not perform official business, or placed to the same number on a daily or monthly basis should also be investigated.
The NLRB receives long distance telephone service from U.S. Sprint. Prior to April 2000, U.S. Sprint provided a monthly paper billing statement that detailed telephone long distance charges for each office. After receiving the billing statement, Facilities divided the billing statement into separate billing statements for Regional, Resident, and Sub-regional offices.  Once separated, billing statements were mailed with a copy of a certification form (Form NLRB-4900 (2-82)) to the office manager where the calls originated.  That office was to review the billing statement to ensure that telephone toll calls were for official business and return the certification form to Facilities with a check for reimbursement for any unofficial telephone toll calls.  After the certification forms were returned, Facilities was to file them by Region. If a check was received with a certification form, Facilities removed the check and delivered it to the Finance Branch.  Facilities did not require that this process be completed within any stated period of time.
According to Facilities staff, this certification procedure was never used for the billing statements for Headquarters.  Because of the number of divisions and branches at Headquarters and that telephone toll calls are detailed by time and date rather than by telephone extension, Facilities decided that it would be too difficult to certify the Headquarters' billing statement.
FINDINGS
For the months from October 1999 to March 2000, Facilities provided a completed certification form for each month from only 5 of the 51 offices, and was unable to provide any completed telephone certification forms for 12 offices.  For the remaining offices, Facilities provided one to five completed certification forms.  The attachment to this report is a schedule of the completed certification forms provided by Facilities.
To identify a possible explanation for the lack of any completed certification forms for 12 offices, we contacted the respective Regional Directors and Acting Regional Directors.  In response to our query, one office provided facsimile copies of the certification forms submitted to Facilities for each relevant month.  Four offices responded that they had fallen behind and had not submitted the certification forms to Facilities.  One office responded that they had not received a telephone call detail since 1995.  The remaining offices either did not respond or stated that they returned the completed certification forms to Facilities and could not provide an explanation of why the forms were missing.
Overall, we observed the certification process was untimely and ineffective. One region consistently completed the certification process in less than a month and indicated that the review followed NLRB's policy and procedures by annotating the billing statement with notations justifying abnormally long telephone calls. Most offices took 2 to 3 months or longer to return certified forms; one office returned certification forms for calendar years 1998 and 1999 in July 2000. Many telephone calls in excess of 20 minutes, including two 3-hour telephone calls, had no annotation as being for official business. One office returned a certification form unsigned noting that the calls could not be certified because several telephone calls were not from the Region; however, no effort was made by Facilities to resolve the apparent billing error. In multiple regions, the certifying official was an office manager instead of the Regional Director or other supervisory official.
We also found that Facilities did not file certification forms by region as described at the entrance conference. Facilities acknowledged during the entrance conference that they were behind in filing the certification forms. During the inspection, we found that Facilities threw the certification forms returned by the regional offices into a box when received, and had done so for fiscal years 2000, 1999 and 1998.  A Facilities staff member said that at the end of each fiscal year, the box was closed, placed in a storage area, and a new box was put in its place.
Although the certification form cites 31 U.S.C. § 680a as the statutory basis for the certification process, we found that in 1996 the statutory authority for the telephone toll call certification process was repealed by Pub.  L. 104-201, § 1721.  (Note that in 1982, 31 U.S.C.  § 680 was renumbered 31 U.S.C. § 1348.)  Additionally, Pub. L. 104-106, the Information Technology Management Reform Act of 1996, repealed the General Services Administration's authority to issue Government-wide regulations for managing, acquiring, and disposing of information technology. The Federal Information Resources Management Regulation provisions cited in NLRB Administrative Bulletin 94-43 are now found at 41 CFR § 101-35.
SUGGESTIONS
After conducting this inspection, we believe that the current system of toll telephone certification lacks meaningful financial or deterrent benefit to the NLRB. Rather than initiating actions to obtain and file missing certification forms, we suggest that Facilities devise a new system for certifying telephone toll calls. The new system should apply to the entire agency and address a change in billing format from paper to CD Rom that began in May 2000. We also suggest that NLRB Bulletin 94-43 and the certification form be updated. We have agreed to work with Facilities in developing a new system.
The Chief, Procurement and Facilities Branch was provided a draft of this report. She stated that the Chief of the Facilities and Safety Section did not dispute the facts of the report.
This inspection was done in accordance with the Quality Standards for Inspections issued by the President's Council on Integrity and Efficiency.
Attachment
cc: The Board
General Counsel
TELEPHONE TOLL CALL CERTIFICATIONS
Regions Months
October November December January February March Total
R-1: Boston, MA
X
X
X
X
X
X
6
R-2: New York, NY
X
X
X
X
X
5
R-3: Buffalo, NY
X
X
X
X
X
X
6
RO: Albany, NY
X
X
2
R-4: Philadelphia, PA
X
X
X
X
X
5
R-5: Baltimore, MD
0
RO: Washington, D.C.
0
R-6: Pittsburgh, PA
X
X
X
3
R-7: Detroit, MI
0
RO: Grand Rapids, MI
X
X
X
3
R-8: Cleveland, OH
X
X
X
X
X
X
6
R-9: Cincinnati, OH
X
X
X
X
X
X
6
R-10: Atlanta, GA
X
X
X
X
X
5
RO: Birmingham, AL
X
X
2
R-11: Winston Salem, NC
X
X
X
X
X
5
R-12: Tampa Bay, FL
0
RO: Jacksonville, FL
0
RO: Miami, FL
X
X
X
X
4
R-13: Chicago, IL
X
X
X
X
4
R-14: St. Louis, MO
X
X
X
X
4
R-15: New Orleans, LA
X
X
X
X
X
5
R-16: Fort Worth, TX
0
RO: Houston, TX
0
RO: San Antonio, TX
X
X
X
3
R-17: Kansas City, KS
X
X
2
RO: Tulsa, OK
X
X
X
3
R-18: Minneapolis, MN
X
X
X
3
RO: Des Moines, IO
X
X
X
3
R-19: Seattle, WA
0
RO: Anchorage, AK
X
X
X
X
4
SR-36: Portland, OR
X
X
X
X
X
X
6
R-20: San Fransisco, CA
X
1
SR-37: Honolulu, HA
X
X
X
3
R-21: Los Angeles, CA
X
X
X
X
X
5
RO: San Diego, CA
X
1
R-22: Newark, NJ
X
X
X
3
R-24: Puerto Rico, PR
0
R-25: Indianapolis, IN
0
R-26: Memphis, TN
X
X
X
X
X
5
RO: Little Rock, AR
X
1
RO: Nashville, TN
X
X
2
R-27: Denver, CO
0
R-28: Phoenix, AZ
X
X
X
X
X
5
RO: Albuquerque, NM
X
X
X
3
RO: Las Vegas, NV
X
X
X
3
R-29: Brooklyn, NY
X
X
X
X
4
R-30: Milwaukee, WI
X
X
X
X
4
R-31: Los Angeles, CA
0
R-32: Oakland, CA
X
X
X
X
4
R-33: Peoria, IL
X
X
X
X
4
R-34: Hartford, CT
X
X
X
3
Total by month
36
32
32
23
11
12